PROOF OF ELECTRONIC SERVICE.
I, Plaintiff Tatyana Drevaleva, am over 18 yo, and I am a Party to the action.
On August 18, 2020,1 served Trial Attorney, Commercial Litigation Branch,
Civil Division Ms. Antonia Soares with the following documents:
Petition for Writ of Certiorari with 7 Exhibits.
electronically after obtaining Mr. Soares’s consent for electronic service.

I

requested Ms. Soares’s permission to serve electronically before, and she answered
affirmatively.
On August 18, 2020,1 transferred the following documents:
Petition for Writ of Certiorari with 7 Exhibits.
from my email address tdrevaleva@gmail.com to Ms. Soares’s address
Antonia.Soares@usdoi.gov

I declare under the penalty of perjury and under the Federal laws that all
foregoing is true and correct. Executed at San Francisco, CA on August 18, 2020.

s/Tatyana Drevaleva
Plaintiff-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: August 18, 2020.

PROOF OF SERVICE.

At the time of the service, I am over 18 yo and not a Party in this action.
My address is:
Ily'V-r-t, Apt 507, San Francisco, C-A7-Q410^

/</Zo Scr/^^r &?,

4/Sr gajS ProrA/c^sco, Cd, &¥/£&

On August 18, 2020,1 mailed a Petition for Writ of Certiorari with 7 Exhibits to the
Solicitor General of the United States to the following address:
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001

I declare under the penalty of perjury and under the Federal laws that all
foregoing is true and correct. Executed at San Francisco, CA on August 18, 2020.

-Mfy-MartrSIdHr*

Ms.
Name

Date: August 18, 2020.

Signature

